HHS/OIG, Audit - "Review of Overpayment Collections by Aid to Families With Dependent Children (AFDC) by South Dakota Department of Social Services (DSS)," (A-08-02-03002)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Overpayment Collections by Aid to Families With Dependent
Children (AFDC) by South Dakota Department of Social Services (DSS)," (A-08-02-03002)
December 5, 2001
Complete Text of Report is available in PDF format (261
KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review
was to determine whether the DSS remitted the Federal share of AFDC overpayment
collections to the Federal government after the program was repealed. We determined the DSS has adequate systems
in place to identify, collect, account for, and remit the Federal share of AFDC
overpayments.